in The

Supreme Court of the United States
CERTIFICATE OF SERVICE
No.
William H. Viehweg,
Petitioner
v.
Sirius XM Radio, Inc.
Respondent
As required by Supreme Court Rule 29(5), I certify that three copies of the
petition for a writ of certiorari, one copy each of the Certificate of Compliance and
this Certificate of Service ware served upon legal counsel for Respondent Sirius
XM Radio, Inc. on
\\
T-Syvia United States Mail, prepaid first
class, to the attorneys forroe Respondent:
Mac Murray & Shuster, LLP
c/o Helen Mac Murray
6525 W. Campus Oval, Suite 210
New Albany, OH 43054
(614) 939-9955
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

, 2021

William H. Viehweg
Petitioner
114 W. 2nd South
Mt. Olive, II 62069
217-999-5061

